Section 3553(a) of Title 18 of the United States Code

3553. Imoosition of A Sentence
(a) FRcroRs To Be CorusIorRro tru INposING

S

A Serurrrucr.-The court

shall impose a sentence sufficient, but not greater than necessary, to
comply with the purposes set forth in paragraph (2) of this subsection.
The court, in determining the particular sentence to be imposed, shall
consider(1)

the nature and circumstances of the offense and the history and
characteristics of the defendant;

(2)

the need for the sentence.imposed(A)

reflect the seriousness of the offense, to promote
respect for the law, and to provide just punishment for the

to

offense;
(B)

to afford adequate deterrence to criminal conduct;

(c)

to protect the public from further crimes of the defendant;
and

(D)

to

provide the defendant with needed educational or
vocational training,'medical care, or other correctional
treatment in the most effective manner;

(3)

the kinds of sentences available;

(4)

the kinds of sentence and the sentencing'range established
(A)

the applicable category of offense committed
applicable category of defendant as set forth

for-

by the
in the

guidelines-

(i)

,

issued by the Sentencing Commission pursuant to
section 994(aX1) of title 28, United States Code,
subject to any arnendments made to such guidelines
by act of Congress (regardless of whether such
amendments have yet to be incorporated by the
S.entencing Commission into amendmentsrissued
-/
under section 99a(p) of title 28); and

(ii)

that, except as provided in section 3742(9), are

in

effect on the date the defendant is sentenced; or

(B)

in the case of a violation of probation or supervised release,
the applicable guidelines or policy statements issued by the

Sentencing Commission pursuant to section 994(aX3) of
title 28, United States Code, taking into account any
amendments made to such guidelines or policy statements

by act of

Congress (regardless of whether such
amendments have yet to be incorporated by the
Sentencing Commission into amendments issued under
section 99a(p) of title 28);

(5)

(6)

any pertinent policy statement(A)

issued by the Sentencing Commission pursuant to section
994(a)(2) of title 28, United States Code, subject to any
amendments made to such policy statement by act
of Congress (regardless of whether such amendments
have yet to be incorporated by the Sentencing Commission
into amendments issued under section 994(p) of title 28);
and

(B)

that, except as provided in sectio n 3742(9), is in effect on
the date the defendant is sentenced.

the need to avoid unwarranted sentence disparities among
defendants with similar records who have been found guilty of
similar conduct; and

(7)

the need to provide restitution to any vicfims of the offense.

Section 3553(c) of Title 18 of the United States Code
(c)

StRtrvrrur oF REASoNS FoR Ilrrposrlrc R Srrurrrucr.-The court, at
the time of sentencing, shall state in open court the reasons for
its imposition of the particular sentence, and, if the sentence-

is of the kind, and within the range,

(1)

described in
subsection (a)(4), and that range exceeds 24 months, the
reason for imposing a sentence at a particular point within
the range; or

(2)

is not of the kind, or is outside the range, described in
subsection (a)(4), the specific reason for the imposition of
a sentence different from that described, which reasons
must also be statdd with specificity in a statement of
reasons form issued under section 994(wX1)(B) of title
28, except to the extent that the court relies upon
statements received in camera in accordance with Federal
Rule of Criminal Procedure 32. In the event that the court
relies upon statements received in cimera in accordance
with Federal Rule of Criminal Procedure 32 the court shall
state that such statements were so received and that it
relied upon the content of such statements.

If the court does not order restitution, or orders only partial
restitution, the court shall include in the statement the reason
therefor. The court shall provide a transcription or other
appropriate public record of the court's statement of reasons,
together with the order of judgment and commitment, to the
Probation System and to the Sentencing Commission,,[3] and, if
the sentence includes a term of imprisonment, to the Bureau of
Prisons.

